JOSEPH P. CORCORAN
ASSISTANT ATTORNEY GENERAL

(512) 936-1400
JOSEPH.CORCORAN@OAG.TEXAS.GOV

April 13, 2020
VIA ELECTRONIC FILING SYSTEM
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

McGregor v. Texas, No. 19-685;

Motion for Extension of Time to File Brief in Opposition

Dear Hon. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent, the State of Texas,
respectfully moves for an extension of the time to file its response in opposition
to the petition for writ of certiorari in McGregor v. Texas, No. 19-685.
The response is presently due to be filed on or before April 20, 2020—after the
Court granted Respondent’s previous extension. Respondent now requests a
14-day extension of time, up to and including Monday, May 4, 2020, in which
to file its brief.
A second extension of time is needed due to the impact that COVID-19 has had
on the undersigned’s capacity to complete the State’s brief in opposition within
the customary time-frame for such pleadings.
No prejudice would arise from the requested extension, as counsel for
Petitioner, Mr. Randolph Schaffer, does not oppose this request.
Thank you for your consideration of this matter.

POST OFFICE BOX 12548 AUSTIN, TEXAS 78711-2548 TEL: (512) 463-2100 www.Texasattorneygeneral.Gov

An Equal Opportunity Employer ∙ Printed on Recycled Paper

Page |2

Sincerely,

s/ Joseph P. Corcoran

JOSEPH P. CORCORAN
Assistant Attorney General
Supervising Attorney
for Non-Capital Appeals
Criminal Appeals Division

OFFICE OF THE ATTORNEY GENERAL
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
Telephone: (512) 936-1400
Facsimile: (512) 936-1280
Joseph.corcora@oag.state.gov
cc:

Randolph L. Schaffer, Jr. (Counsel for Petitioner)

